               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




         Funnel Management Program

         Management Advisory Report




                                              March 20, 2013

Report Number MS-MA-13-001
                                                                        March 20, 2013

                                                        Funnel Management Program

                                                        Report Number MS-MA-13-001



BACKGROUND:                                  personnel who reach customers by
U.S. Postal Service sales leads are          phone, interested mail service providers,
generated by several sources, including      or other Postal Service officials, such as
sales staff, letter carriers, postmasters,   postmasters.
and other officials. The Postal Service
records and tracks sales leads in the        By diverting and processing sales leads
CustomerFirst! System. Designated            with lower priorities, sales specialists
sales staff must review leads and            can focus their efforts on those
determine whether to follow-up or close      opportunities most likely to result in
each lead. Action must be taken on all       significant sales. We estimate that
sales leads within 48 hours, regardless      enhancing the Funnel Management
of the leads’ prospects for revenue or       Program to divert and process low
successful closing. The Postal Service       probability sales leads through
recorded about 120,000 sales leads in        alternative channels would increase
fiscal year (FY) 2012.                       sales revenue by $2.4 million per year.

Due to the large number of incoming          WHAT THE OIG RECOMMENDED:
sales leads and limited staff, the Postal    We recommended the vice president,
Service developed the Funnel                 Sales, enhance the Funnel
Management Program in FY 2011. This          Management Program to automatically
system uses a computer model and             identify lower priority sales leads with
manual processes to prioritize sales         lower revenue and lower prospects for
leads.                                       closing, and divert them to more
                                             cost-effective channels.
The objective of our review was to
evaluate potential enhancements to the       Link to review the entire report
Funnel Management Program.

WHAT THE OIG FOUND:
Opportunities exist for the Postal
Service to enhance the Funnel
Management Program by enhancing the
automated process to divert lower
priority leads to lower cost sales
channels that meet predetermined
criteria. For example, sales leads with
lower revenue and lower prospects for
closing can be diverted to sales
March 20, 2013

MEMORANDUM FOR:            WILLIAM C. RUCKER III
                           VICE PRESIDENT, SALES




                           for
FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Performance

SUBJECT:                   Management Advisory – Funnel Management Program
                           (Report Number MS-MA-13-001)

This report presents the results of our review of the Funnel Management Program
(Project Number 12RG028MS000). The objective of our review was to evaluate
potential enhancements to the program.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet M. Sorensen, director,
Sales and Marketing, or me at 703-248-2100.

Attachments

cc: Nagisa M. Manabe
    Corporate Audit and Response Management
Funnel Management Program                                                                                         MS-MA-13-001




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Enhancements ................................................................................................................ 2

Recommendation ............................................................................................................ 3

Management’s Comments .............................................................................................. 3

Evaluation of Management’s Comments ......................................................................... 3

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objective, Scope, and Methodology ............................................................................ 4

   Prior Audit Coverage ................................................................................................... 5

Appendix B: Monetary Impact ......................................................................................... 6

Appendix C: Management's Comments .......................................................................... 7
Funnel Management Program                                                                            MS-MA-13-001




Introduction

This report presents the results of our review of the Funnel Management Program
(FMP), which the U.S. Postal Service’s Sales organization uses to prioritize sales leads
(Project Number 12RG028MS000). The objective of this review was to evaluate
potential enhancements to the FMP. This review was self-initiated and addresses
strategic risk. See Appendix A for additional information about this review.

The Postal Service collects sales leads from a variety of sources — including sales
staff, letter carriers, postmasters, and other Postal Service officials — and routes them
to its Sales organization. Sales is responsible for analyzing these leads to determine,
among other things, which sales employee is responsible for the lead, the revenue
potential of the lead, and the lead’s priority. The Postal Service recorded about 120,000
sales leads in fiscal year (FY) 2012.

The Postal Service piloted Funnel Management in April 2011 in six districts to provide
predictive analytics to increase the effectiveness of the sales force and generate more
revenue. The agency developed it due to limited sales staff resources and an
overwhelming demand on the Sales force to follow-up on all sales leads. Furthermore,
solutions specialists1 must follow-up all leads within 48 hours regardless of the leads’
prospects for revenue or a successful closing. This program uses an analytical model
that incorporates Sales’ lead data from the two primary systems that contain this data —
CustomerFirst!2 and Customer Data Mart3 — to evaluate how likely it is that a lead will
result in a sale. The Postal Service reported4 that pilot districts demonstrated a
25 percent increase in sales conversion rates,5 resulting in an additional $49 million in
revenue. The FMP was launched nationwide to the 360 Business Solutions Specialists
(BSS) in FY 2012. The Postal Service’s Sales managers have been pleased with the
progress of the FMP and have recently deployed it to the remaining 280 Sales
personnel.




1
  A sales person with a sales territory assigned by the district sales manager and approved by the area manager for
Shipping & Mailing Solutions.
2
  CustomerFirst! is the system Postal Service Sales employees use to manage sales leads. It includes customer
information such as point of contact, service requests, and sales activities.
3
  A single repository of customer transactions and activities across multiple service channels that improves
management of customer relationships. It includes data files from 13 systems, such as CustomerFirst! and
PostalOne!, and includes information such as volume and revenue data.
4
  Based on the Lead Management Decision Analysis Report (DAR) dated December 6, 2011. A DAR explains the
background and purpose of the program and fully documents costs and benefit estimates.
5
  The number of sales divided by the number of sales leads.
                                                            1
Funnel Management Program                                                                            MS-MA-13-001




Conclusion

Opportunities exist for the Postal Service to enhance the FMP by enhancing automated
processes to divert lower priority leads to lower cost sales channels that meet
predetermined criteria. For example, lower priority sales leads with lower revenue and
lower prospects for closing can be diverted to Sales personnel who reach customers by
phone, interested mail service providers,6 or other Postal Service officials, such as
postmasters. By diverting and processing lower quality and revenue sales leads that
meet predetermined criteria, specialists can focus their efforts on opportunities most
likely to result in significant sales. We estimate that enhancing the FMP to divert these
sales leads would increase sales revenue by $2.4 million in FY 2013. See Appendix B
for monetary impact.

Enhancements

The funnel management system uses a computer model and manual processes to
prioritize sales leads which are then provided to each BSS twice per week by email.
Specialists are directed to focus their attention on the highest priority leads. Sales
solution specialists make initial customer contact, assess the opportunity, and record
their activities in CustomerFirst!.

Based on discussions with Sales personnel and a recent audit report,7 we determined
that many of the lower priority sales leads may not be cost effective for Sales
representatives to pursue, particularly sales leads with incomplete or inaccurate data, or
one-time sales with relatively low revenue. For example, lead opportunities from the
Employee Engagement Program8 are often incomplete and do not contain detailed
contact information. While some sales leads are fruitful and result in much needed
revenue, Sales specialists may expend valuable time obtaining information and
following up on sales leads with relatively low revenue or low prospects of generating
additional revenue. Sales representatives may be more effective focusing on
opportunities with potential for higher revenue, including prospecting for new leads.
Many of the most productive leads are generated by BSSs conducting their own
research.

The Postal Service has taken some action to improve the effectiveness of the Sales
force by assigning some leads to more cost-effective channels. For example, the Postal
Service is piloting inside Sales9 teams staffed by Postal Service employees who review

6
  Company or entity that creates, prepares, processes, and presents or inducts mail for other companies into the U.S.
Postal Service network.
7
  Carrier Contributions to Revenue Generation and Customer Service (Report Number MS-AR-12-005, dated June
19, 2012) reported management might be missing opportunities to grow revenue due to incomplete data on sales
leads.
8
  These programs generate sales leads from Postal Service employees. The programs include Customer Connect,
Rural Reach, and Submit-a-Lead. Sales leads can also be generated by the Business Connect Program.
9
  The sale of products or services by Sales personnel who reach customers by phone or online rather than traveling
to meet them face to face.


                                                          2
Funnel Management Program                                                      MS-MA-13-001



and follow-up Employee Engagement Program sales leads. The Postal Service also has
a pilot that sends certain sales leads for Every Door Direct Mail (EDDM) to a sales call
center staffed by contractors. The intent of the pilot is to increase EDDM sales, with a
focus on relatively low revenue10 sales to small businesses. Preliminary results indicate
that these pilots are cost-effective alternatives to using Sales specialists for leads with
lower revenue prospects. We believe management could expand and facilitate this
approach with the FMP by using the FMP to prioritize sales leads and divert lower
priority leads (such as leads from the Employee Engagement Programs and Every Door
Direct Mail – Retail) to inside sales or to other more cost-effective sales channels. In
addition, these alternative channels could include interested mail service providers or
local Postal Service officials, such as postmasters. By automating the process, Sales
specialists will be able to focus on the highest priority opportunities and pursue leads
most likely to result in sales and increased revenue.

We estimate that enhancing the FMP to divert these sales leads would provide sales
solution specialists with                                   and increase sales
revenue by $2.4 million in FY 2013.

Recommendation

We recommend the vice president, Sales:

1. Enhance the Funnel Management Program to identify sales leads that meet
   predetermined criteria with lower revenue and lower prospects for closing and divert
   them to more cost-effective channels.

Management’s Comments

Management agreed with our finding and recommendation. Management stated they
will evaluate the potential for enhancement of the FMP to automatically identify lower
priority sales leads with lower revenue and lower prospects for closing and divert them
to more cost-effective channels. Management stated that they will complete their
evaluation of the program and determine the next steps to take by March 2014.

After further discussion with Postal Service management, they agreed with the reported
estimated $7.2 million in revenue loss.

See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General considers management’s
comments responsive to the recommendation in the report.



10
     Less than $30,000.

                                             3
Funnel Management Program                                                       MS-MA-13-001




                            Appendix A: Additional Information

Background

The Postal Service collects sales leads from a variety of sources, including Sales staff,
letter carriers, postmasters, and other Postal Service officials. Sales leads are
transitioned to the appropriate Sales force, resulting in an initial customer contact and
opportunity assessment. Depending on the type and complexity of the lead, it will be
assigned to the appropriate Sales personnel.

The Postal Service developed the FMP in 2010 to prioritize sales leads due to the
overwhelming demand on the Sales force and limited Sales staff resources. To prioritize
leads, the FMP uses an analytical model that incorporates data points from Postal
Service data systems to evaluate a sales lead’s likeliness to convert into a sale.
Management created the predictive analytical model by evaluating 2 years worth of
Postal Service sales data and over 1,800 variables, such as revenue, product, and lead
source. Patterns and trends in this data were used to identify characteristics of
successful sales. The predictive analytical model uses these indicators to evaluate
current opportunities and determine their likelihood of converting to a closed sale. The
system provides each Sales specialist with a prioritized list of assigned open sales
leads based on their probability of converting into a sale. Specialists are directed to
focus on the highest priority leads.

Objective, Scope, and Methodology

Our objective was to evaluate potential enhancements to the FMP. To accomplish our
objective we:

   Interviewed headquarters officials and area and district managers to obtain
    background knowledge about the FMP and its effectiveness.

   Conducted site visits in Northern New Jersey to gather information on the FMP and
    observed BSS daily planning as it pertains to the FMP list of prioritized opportunities.

   Reviewed reports related to the implementation and effectiveness of the FMP.

   Reviewed the Sales Management Process Manual and related policy documents.

We conducted this review from June 2012 through February 2013 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on February 7, 2013 and included their comments where appropriate.




                                             4
    Funnel Management Program                                                         MS-MA-13-001



    Prior Audit Coverage

                                                        Final           Monetary
                                                       Report          Impact (in
          Report Title               Report Number      Date            millions)
Carrier Contributions to
Revenue Generation and
Customer Service                      MS-AR-12-005       6/19/2012          $56.1
Report Results:
Carriers’ level of participation through the Customer Connect and Rural Reach
programs varies among districts. If districts with low participation adopt the best
practices of districts with high participation, there might be an opportunity to
increase the number and quality of sales leads and, thus, revenue. Management
agreed with the findings and recommendations and set forth its plan to implement
best practices for Customer Connect and Rural Reach programs in districts
throughout the country.

Package Delivery Growth             MS-AR-12-003       5/4/2012           $647
Report Results:
Although the Postal Service’s strategies for growing its package business are
sound, their effectiveness has been impacted by (1) lack of a strategic
decision-making process for evaluating new sale opportunities, (2) sales tracking
system shortcomings, and (3) chronic Sales staff vacancies. The Postal Service
can grow its package business by stabilizing Sales staffing levels and adding new
products. Management agreed with the findings and recommendations and set forth
its plans for corrective actions. Management disagreed with the monetary impact
stating that, even with a reduced Sales force, they have been able to increase sales
by focusing on higher value sales and sales execution.




                                                 5
Funnel Management Program                                                                            MS-MA-13-001



                                     Appendix B: Monetary Impact


           Recommendation                        Impact Category                            Amount
                 1                          Recoverable Revenue Loss11                     $7,200,000

Based on Postal Service data,12 the FMP will generate




                                                              for FYs 2014-2015 for a total of $7.2
million.




11
   Amounts USPS is (or was) entitled to receive but was underpaid or not realized because policies, procedures,
agreements, requirements, or good business practices were lacking or not followed. May be recoverable or
unrecoverable. May apply to historical events or a future period (in the sense perceived future losses may be
prevented by the implementation of a recommendation).
12
   Data was based on the Lead Management DAR dated December 6, 2011.


                                                         6
Funnel Management Program                                   MS-MA-13-001



                        Appendix C: Management's Comments




                                        7
Funnel Management Program       MS-MA-13-001




                            8
